TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                     Improvements Are Needed in Assessing
                      and Enforcing Internal Revenue Code
                      Section 6694 Paid Preparer Penalties



                                       September 9, 2013

                              Reference Number: 2013-30-075




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Redaction Legend:
 1 = Tax Return/Return Information



 Phone Number | 202-622-6500
 E-mail Address | TIGTACommunications@tigta.treas.gov
 Website        | http://www.treasury.gov/tigta
                                                    HIGHLIGHTS


IMPROVEMENTS ARE NEEDED                                these penalty assessments in court if necessary.
IN ASSESSING AND ENFORCING                             When this issue was brought to their attention,
INTERNAL REVENUE CODE                                  IRS officials took immediate corrective actions
SECTION 6694 PAID PREPARER                             by emphasizing the importance of properly
PENALTIES                                              approving, in writing, preparer penalty
                                                       assessments.

Highlights                                             TIGTA also analyzed the IRS’s quality reviews
                                                       for civil penalty determinations to evaluate
Final Report issued on                                 whether preparer penalties were properly
                                                       considered and documented. IRS quality
September 9, 2013
                                                       reviewers found that examiners did not always
                                                       adequately document the examination case files
Highlights of Reference Number: 2013-30-075            with the facts that supported whether or not they
to the Internal Revenue Service Commissioner           considered paid preparer penalties. This
for the Small Business/Self-Employed Division.         appeared to be attributable to management’s
IMPACT ON TAXPAYERS                                    interpretation of procedures regarding proper
                                                       documentation in the examined cases.
More than half of all taxpayers pay someone
else to prepare their Federal income tax returns.      In addition, TIGTA analyzed the Master File to
When paid preparers take an unreasonable               determine whether the IRS is effectively
position or intentionally prepare inaccurate tax       enforcing paid preparer penalties. Our results
returns, Internal Revenue Code (I.R.C.) Section        showed that current enforcement practices do
(§) 6694 provides penalty standards for paid           not treat paid preparers with unpaid penalties as
preparers to discourage further fraudulent or          a priority, which could impact whether penalties
unscrupulous behavior.                                 achieve their intent of changing preparer
                                                       behavior and increasing voluntary compliance.
WHY TIGTA DID THE AUDIT
                                                       WHAT TIGTA RECOMMENDED
The IRS Oversight Board requested that TIGTA
determine how effective the IRS is in using the        TIGTA recommended that the IRS update the
existing requirements and penalty regime that          Internal Revenue Manual and implement
applies to unenrolled paid tax return preparers.       improvements to ensure that managers and
Our overall objective was to determine whether         employees adhere to internal procedures for
controls are in place to ensure that the IRS           documenting actions and results in preparer
effectively enforces and applies penalties to paid     penalty case files. TIGTA also recommended
preparers as required by I.R.C. § 6694.                that the IRS develop procedures to expedite
                                                       assigning I.R.C. § 6694 preparer penalty tax
WHAT TIGTA FOUND                                       accounts to a revenue officer as well as to give
                                                       more consideration before suspending collection
TIGTA reviewed a statistical sample of                 actions on these types of accounts.
98 closed I.R.C. § 6694 preparer penalty cases
from a population of 2,345 cases with penalties        IRS officials agreed with all of our
totaling $9.35 million that were closed during         recommendations and plan to take appropriate
Fiscal Years 2009 through 2011. Our results            corrective actions.
showed that in eight cases the immediate
managers did not properly approve $19,000 in
preparer penalty assessments as required.
I.R.C. § 6751(b) requires that the initial
determination of a penalty assessment be
personally approved in writing by the immediate
supervisor. Lack of proper approval could
hinder the IRS’s ability to successfully litigate
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                          September 9, 2013


 MEMORANDUM FOR COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                DIVISION


 FROM:                       Michael E. McKenney
                             Acting Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Improvements Are Needed in Assessing and
                             Enforcing Internal Revenue Code Section 6694 Paid Preparer Penalties
                             (Audit # 201130038)

 This report presents the results of our review to determine whether controls are in place to ensure
 that the Internal Revenue Service (IRS) effectively enforces and applies penalties to paid
 preparers as required by Internal Revenue Code Section 6694. We conducted this audit at the
 suggestion of the IRS Oversight Board, which requested that we determine how effectively the
 IRS is using the existing requirements and penalty regime that applies to unenrolled return
 preparers. This audit is included in our Fiscal Year 2013 Annual Audit Plan and addresses the
 major management challenge of Tax Compliance Initiatives.
 Management’s complete response to the draft report is included as Appendix VIII.
 Copies of this report are also being sent to the Internal Revenue Service managers affected by the
 report recommendations. If you have any questions, please contact me or Nancy A. Nakamura,
 Acting Assistant Inspector General for Audit (Compliance and Enforcement Operations).
                           Improvements Are Needed in Assessing and Enforcing
                        Internal Revenue Code Section 6694 Paid Preparer Penalties




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review..................................................................................... Page 4
          Documentation Is Insufficient to Ensure That
          Required Managerial Approvals Have Been
          Obtained for Some Penalty Cases As Required ............................................ Page 4
                    Recommendation 1:........................................................ Page 7

                    Recommendations 2 and 3: .............................................. Page 8

          Documentation Is Insufficient to Determine if
          Tax Examiners Considered Preparer Penalties ............................................. Page 9
                    Recommendation 4:........................................................ Page 10

          Collection Actions Are Not Being Actively
          Pursued on Some Preparer Penalty Assessments.......................................... Page 11
                    Recommendations 5 and 6: .............................................. Page 16


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 17
          Appendix II – Major Contributors to This Report ........................................ Page 20
          Appendix III – Report Distribution List ....................................................... Page 21
          Appendix IV – Outcome Measure ................................................................ Page 22
          Appendix V – Internal Revenue Code Section 6694 .................................... Page 23
          Appendix VI – Form 8278, Assessment and Abatement of
          Miscellaneous Civil Penalties ....................................................................... Page 26
          Appendix VII – Glossary of Terms .............................................................. Page 27
          Appendix VIII – Management’s Response to the Draft Report ................... Page 30
            Improvements Are Needed in Assessing and Enforcing
         Internal Revenue Code Section 6694 Paid Preparer Penalties




                       Abbreviations

I.R.C.           Internal Revenue Code
IRS              Internal Revenue Service
NQRS             National Quality Review System
PTIN             Preparer Tax Identification Number
SB/SE            Small Business/Self-Employed
                       Improvements Are Needed in Assessing and Enforcing
                    Internal Revenue Code Section 6694 Paid Preparer Penalties




                                           Background

The U.S. Federal tax system is based on the public’s willingness to prepare an accurate tax
return, file it timely, and pay any taxes due. Every year, more than half of all taxpayers pay
someone else to prepare their Federal income tax returns. In Calendar Year 2012, more than
700,000 tax return preparers registered with the Internal Revenue Service (IRS) and obtained a
Preparer Tax Identification Number (PTIN)1 so that they could prepare and file Federal tax
returns for someone else.
Registering tax preparers was the first step
in the IRS’s plan to regulate tax preparers.
Prior to Calendar Year 2011, preparers did
not have any national standards that they
were required to satisfy before selling tax
preparation services to the public. Anyone,                 During Calendar Year 2012, more than
regardless of training, experience, skill, or                  700,000 paid tax return preparers
                                                         registered with the IRS and obtained a PTIN.
knowledge, was allowed to prepare Federal
income tax returns for others for a fee.
Starting January 1, 2011, the IRS required all paid tax return preparers to register and obtain a
unique PTIN and use it to sign all returns they prepare, both paper and electronic. Paid preparers
can be self-employed or may work for accounting firms, tax preparation services, or law firms.
Additionally, the IRS issued final regulations making return preparers who are not attorneys,
certified public accountants, or enrolled agents subject to Treasury Department Circular 230,
Regulations Governing Practice before the Internal Revenue Service,2 and requiring them to pass
a qualifying exam, pay an annual fee, and take 15 hours of continuing education courses each
year.
However, three tax return preparers brought suit in Federal court seeking injunctive and
declaratory relief and moved for a summary judgment. As a result, on January 18, 2013, the
U.S. District Court for the District of Columbia enjoined the IRS from enforcing the regulatory
requirements for registered tax return preparers. On February 1, 2013, the Court modified its
order to clarify that the order does not affect the requirement for all paid tax return preparers to
obtain a PTIN.3



1
  See Appendix VII for a glossary of terms.
2
  Department of the Treasury, Treasury Department Circular No. 230, Regulations Governing Practice before the
Internal Revenue Service (Rev. 8-2011).
3
  Loving, No. 12-385 (D.D.C. Jan. 18, 2013).
                                                                                                        Page 1
                          Improvements Are Needed in Assessing and Enforcing
                       Internal Revenue Code Section 6694 Paid Preparer Penalties



The Court stated that IRS regulations would displace other statutes spread throughout Title 26 of
the United States Code that create a “careful, regimented schedule of penalties for misdeeds by
tax-return preparers.” Furthermore, the Court stated:
           ...Congress has already enacted a relatively rigid penalty scheme to punish misdeeds by
           tax-return preparers. Title 26, in fact, has at least ten penalties specific to tax-return
           preparers, each of which targets particular conduct related to preparing and filing tax
           returns, and each of which comes with a specific fine...

These penalties include Internal Revenue Code (I.R.C.) Section (§) 6694, Understatement of
taxpayer’s liability by tax return preparer.
I.R.C. § 66944
I.R.C. § 6694 provides the primary penalty standards for paid preparers and includes guidance to
discourage fraudulent and unscrupulous behavior. In May 2007, Congress passed the Small
Business Work Opportunity Tax Act.5 Section 8246 of this act revised I.R.C. § 6694 to include
an increase in the preparer penalty amount from $250 to a minimum of $1,000 under
I.R.C. § 6694(a) and from $1,000 to a minimum of $5,000 under I.R.C. § 6694(b). Specifically:
          If the understatement is due to an unreasonable position that was based on the preparer’s
           advice, I.R.C. § 6694(a) allows for a minimum penalty of $1,000 to be assessed. If the
           preparer can prove he/she acted in good faith and that the understatement was due to a
           reasonable cause, the IRS will waive the penalty.
          If the understatement is due to the preparer’s willful attempt to understate the tax
           liability, or reckless or intentional disregard of rules or regulations, I.R.C. § 6694(b)
           allows for a minimum penalty of $5,000 to be assessed.
The Office of Servicewide Penalties, part of the Small Business/Self-Employed (SB/SE)
Division’s Examination Policy function, is responsible for administering all penalty programs,
policies, and procedures throughout the IRS’s operating divisions. There are specific procedures
regarding when to impose a preparer penalty. If revenue agents or tax compliance officers
(hereafter referred to as examiners) identify an understatement during the regular course of an
audit, then examiners are to interview the taxpayer about the paid preparer’s involvement in the
tax understatement. The examiners will also interview the paid preparer to determine whether
any known violations transpired during the tax return preparation.
The taxpayer’s oral and written responses and the information obtained from the paid preparer
help examiners and their managers determine the extent of the professional relationship. In
addition, this information helps the IRS determine the taxpayer’s and paid preparer’s knowledge
of tax law, education, and levels of sophistication in relationship to the understatement. If there


4
    See Appendix V for the complete I.R.C. § 6694.
5
    Pub. L No 110-28 (2007).
                                                                                                        Page 2
                    Improvements Are Needed in Assessing and Enforcing
                 Internal Revenue Code Section 6694 Paid Preparer Penalties



are compelling facts showing that the paid preparer substantially contributed to the
understatement on the prepared tax return, then examiners and their managers should consider
asserting an I.R.C. § 6694 penalty.
This review was performed at the SB/SE Division Headquarters Office in New Carrollton,
Maryland, and the SB/SE Division Examination field and office functions in Oakland,
California; Atlanta, Georgia; Greensboro, North Carolina; Philadelphia, Pennsylvania; and
Memphis, Tennessee, during the period of September 2011 through January 2013. We
conducted this performance audit in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain sufficient and
appropriate evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objective. Detailed information on our audit
objective, scope, and methodology is presented in Appendix I. Major contributors to the report
are listed in Appendix II.




                                                                                          Page 3
                        Improvements Are Needed in Assessing and Enforcing
                     Internal Revenue Code Section 6694 Paid Preparer Penalties




                                       Results of Review

Documentation Is Insufficient to Ensure That Required Managerial
Approvals Have Been Obtained for Some Penalty Cases As Required
A review of a statistically valid random sample of 98 of 2,345 closed I.R.C. § 6694 preparer
penalty case files showed that eight (8 percent) of the cases did not contain the proper
documentation that the manager had appropriately approved the penalty. Additionally, more
than half (53 cases) of the preparer penalty case files contained procedural errors.
The law requires managerial approval for the IRS to legally enforce preparer penalty
assessments. The law states:
         In general, no penalty under this title shall be assessed unless the initial determination of
         such assessment is personally approved (in writing) by the immediate supervisor of the
         individual making such determination or such higher level official as the Secretary may
         designate.6

If an I.R.C. § 6694 preparer penalty is asserted,7 the examiner is required to create a separate
case file that includes Form 8278, Assessment and Abatement of Miscellaneous Civil Penalties,8
and Form 3198, Special Handling Notice for Examination Case Processing. All documentation
the examiner used to support the decision to assert the penalty is forwarded to the Examination
manager for review, approval, and signature.
Instructions that are a part of Form 8278 state, in at least two different places, the requirement
for managerial approval of the assessments/Form 8278:
         IRC section 6751(b) requires that for Title 26 penalty assessments, the immediate
         supervisor of the individual making the determination (or a higher level official the
         Secretary may designate) must personally approve the assessment in writing. Personal
         approval of the immediate supervisor is met with an original signature or a digital (e.g.,
         using the digital signature capability in Adobe Acrobat) signature. Exceptions that do not
         require managerial approval are penalties under IRC sections 6651, 6654, 6655, 6698,
         6699, or any other penalty automatically calculated through electronic means.
         The Manager is required to sign (personally or using the digital signature capability in
         Adobe Acrobat) this form. Management approval for the assessment of the penalty is
         required under IRC section 6751. Before Form 8278 is submitted for processing,


6
  I.R.C. § 6751(b).
7
  The penalty is asserted after the manager agrees with the examiner’s facts showing that the paid preparer
substantially contributed to the understatement of tax on a prepared tax return.
8
  See Appendix VI for an excerpt of Form 8278.
                                                                                                              Page 4
                        Improvements Are Needed in Assessing and Enforcing
                     Internal Revenue Code Section 6694 Paid Preparer Penalties



         verify that blocks 10(a–d) and 11a are complete. If blocks 10a and 11a do not contain an
         Originator AND a Manager’s signature, Form 8278 and the associated case file will be
         returned to the manager.

Once approved, the case file is forwarded to the local return preparer coordinator for further
review. The coordinator is required to verify that the case file contains all the required
information, signatures, and forms and, if not, to return the case file.
Tests were conducted on a statistical sample of 98 penalty case files with assessed I.R.C. § 6694
penalties from a population of 2,345 cases with penalties totaling $9.35 million that were closed
during Fiscal Years 2009 through 2011.9 Results showed that of 98 penalty cases:
        Five (5 percent) were transferred to another IRS function and were not available for
         review.
        Eight (8 percent) did not contain any evidence in the case files to support that the $19,000
         in penalty assessments were personally approved in writing by the immediate manager.
         o Three cases had no manager’s signature on the Form 8278 and no evidence (such as a
           handwritten or digital signature or a manager’s notation on any other documents in
           the case file) that the manager was involved in the penalty determination process or
           that the penalty assessment complied with the intent of I.R.C. § 6751(b).
         o Five cases had the manager’s name typed on the Form 8278. However, there was no
           evidence (such as a handwritten or digital signature or a manager’s notation on any
           other documents in the case file) that the manager was involved in the penalty
           determination process or that the penalty assessment complied with the intent of
           I.R.C. § 6751(b).
         Based on the eight cases with $19,000 in penalties, we estimate that approximately 191 of
         the I.R.C. § 6694 preparer penalty cases that were closed for Fiscal Years 2009 through
         2011 may have been improperly assessed $454,643 in penalties.10 The lack of proper
         approval could hinder the IRS’s ability to successfully litigate these penalty assessments
         in court if necessary.
        38 (39 percent) had procedural errors in which the manager did not properly follow
         IRS guidelines when approving paid preparer penalties.
         o 31 cases only had the manager’s name typed on the Form 8278. However, all cases
           had sufficient evidence that the manager was involved in the penalty determination


9
 See Appendix I for details of our statistical sampling methodology.
10
  We are 90 percent confident that the range of penalty cases without evidence that the manager personally
approved the penalty assessments in the case file is between 86 and 296. As a result, we estimate that between
$116,730 and $792,555 in penalties could be improperly assessed. See Appendix IV for details on how all
projections were calculated.
                                                                                                            Page 5
                     Improvements Are Needed in Assessing and Enforcing
                  Internal Revenue Code Section 6694 Paid Preparer Penalties



           process and appear to comply with the intent of I.R.C. § 6751(b).
       o Seven cases had no manager’s signature on the Form 8278. However, all seven cases
         had sufficient evidence that the manager was involved in the penalty determination
         process and appear to comply with the intent of I.R.C. § 6751(b).
      15 (15 percent) cases did not have a Form 8278 or any other documentation in the case
       files showing that managers were involved with the penalty determination process. As a
       result, we were not able to make a definitive determination of whether these penalty
       assessments complied with I.R.C. § 6751(b).
      32 (33 percent) had either a physical or digital signature on the Form 8278 documenting
       that the penalty assessments were approved by the immediate manager and that the
       penalty assessment complied with the intent of I.R.C. § 6751(b).
SB/SE Division officials stated that they consider typed names on the Form 8278 as a signature
and they accept any form of signature, including handwritten, typed, or digitally signed.
However, typed signatures do not meet the intent of the law, which requires an assessment to be
personally approved in writing. Additionally, a typed signature could be challenged in U.S.
District Court if a case is litigated.
SB/SE Division officials also stated that they expect managers to use Form 8278 to document
their reviews and approvals of the penalty assessments. However, officials are aware that
managers often document their approvals of the penalty assessment on the Form 3198 or other
forms within the case file. Although not procedurally correct, the presence of their signatures in
the penalty case file helps mitigate concerns about the legality of the penalty assessments.
After discussing the results of the case reviews with SB/SE Division officials, they took
immediate corrective actions. Specifically, they:
      Included in their September 2012 Technical Digest an article reminding managers that
       they must sign and date Forms 8278 using ink or a digital signature.
      Reminded return preparer coordinators that they are the gatekeepers of the Form 8278
       and should ensure that the managers properly sign and date it.
      Issued a memorandum to their field offices emphasizing the importance of managerial
       approval of penalties using a handwritten or a digital signature. This guidance also
       included directions to the return preparer coordinators and Centralized Case Processing
       function employees reminding them to ensure that the cases files contain a manager’s
       signature on Form 8278. The Centralized Case Processing function assesses the penalty
       and closes the penalty cases.
      Held discussions with Examination Area Directors regarding the importance of
       managerial approval of penalties.

                                                                                            Page 6
                        Improvements Are Needed in Assessing and Enforcing
                     Internal Revenue Code Section 6694 Paid Preparer Penalties



Employees did not always appropriately document reviews and the processing of
preparer penalty assessments
For 10 (10 percent) of the 98 cases sampled, the return preparer coordinators did not follow the
procedures and instructions directing them to sign and date the Form 8278. The Internal
Revenue Manual and processing guidelines require that employees who process Form 8278 are
to sign and date it. The signatures are necessary to verify that the assessment was appropriately
reviewed.
For ******************************1******************************************
*************************************1************************. SB/SE Division
officials stated that these employees do not have specific Internal Revenue Manual procedures to
follow for processing preparer penalties. However, to document penalty case processing, they
are instructed to either attach a Form 11036, Case Record, to Form 8278 or use their assigned
Integrated Data Retrieval System input number on Form 8278 to identify who processed the
assessment. ************************************1****************************
*****************************************1***********************
We project that approximately 287 of the penalty cases closed during Fiscal Years 2009 through
2011 had employee procedural errors in which the return preparer coordinators or Centralized
Case Processing function employees did not follow proper procedures and guidelines when
reviewing or processing the paid preparer penalties.11 After discussing our audit results with
SB/SE Division officials, they assisted the Centralized Case Processing function and the Office
of Servicewide Penalty to clarify what identifying information Centralized Case Processing
function employees should provide on Form 8278 during the current revision process for the
form.

Recommendations
The Commissioner, SB/SE Division, should ensure that:
Recommendation 1: Periodic operational reviews are conducted and documented to verify
that managers are adhering to the required procedures to properly sign and date Form 8278 for
paid preparer penalty cases. This includes whether return preparer coordinators and Centralized
Case Processing function employees properly documented their reviews.
         Management’s Response: IRS management agreed with this recommendation.
         They agreed to conduct a return preparer penalty program review to ensure that
         managers, return preparer coordinators, and Centralized Case Processing terminal
         operators are properly reviewing, approving, and acknowledging assertion of return


11
  We are 90 percent confident that the range of preparer penalty cases that were closed during this period with
employee procedural errors is between 161 and 413.
                                                                                                             Page 7
                   Improvements Are Needed in Assessing and Enforcing
                Internal Revenue Code Section 6694 Paid Preparer Penalties



      preparer penalties. Examination Policy will coordinate with Campus Compliance
      Services to conduct the program reviews, which include proper completion of Form
      8278.
      Office of Audit Comment: Although IRS management agreed with our
      recommendation, they did not agree with the value of our outcome measure. IRS
      management stated that the finding and outcome measure projection was based on eight
      preparer penalty case files that lacked full documentation. We disagree with the IRS. All
      eight preparer penalty case files reviewed contained Form 8278, which the IRS uses to
      document management’s approval of the paid preparer penalty assessment. However,
      there was no evidence in the case files to support that the immediate manager was
      involved with the penalty determination process or that the $19,000 in penalty
      assessments were personally approved in writing as required by I.R.C. § 6751(b).
      The IRS suggests that additional copies of Form 8278 for the tax years reviewed may be
      in some other tax year’s archived penalty case files for these preparers. Five of the
      preparer penalty assessments were for only one year; therefore, there would be no
      additional penalty case files. The three remaining preparer cases had penalty assessments
      for more than one year, which means that there would be other archived penalty case files
      for these preparers. Nevertheless, in the case files we reviewed, ***1***************
      ***********************************1**********************************
      *************************1********************. It is likely that the other tax
      year’s archived case would have copies of these same Forms 8278 and unlikely that the
      files would have different Forms 8278 with physical or digital signatures. As such, we
      believe that the lack of proper approvals would still hinder the IRS’s ability to
      successfully litigate these preparer penalty assessments in court, if challenged.
Recommendation 2: Return preparer coordinators adhere to procedures and guidelines when
processing Form 8278.
      Management’s Response: IRS management agreed with this recommendation. The
      SB/SE Examination Policy function will develop a training module for area return
      preparer coordinators to address adherence to procedures and guidelines related to the
      assertion of return preparer penalties and the processing of Form 8278.
Recommendation 3: The Internal Revenue Manual is updated to include preparer penalty
processing procedures for Centralized Case Processing function employees.
      Management’s Response: IRS management agreed with this recommendation.
      They agreed to update Internal Revenue Manual 20.1.6 to include preparer penalty
      processing procedures for Centralized Case Processing employees. In addition,
      Form 8278 was updated in April 2013 to include instructions for the terminal operators.



                                                                                        Page 8
                         Improvements Are Needed in Assessing and Enforcing
                      Internal Revenue Code Section 6694 Paid Preparer Penalties




Documentation Is Insufficient to Determine if Tax Examiners
Considered Preparer Penalties
The IRS’s National Quality Review System (NQRS),12 used to assess the quality of closed tax
return examination cases, shows that the preparer penalty is not always considered and/or
                                     documentation is insufficient to support the nonassertion of the
  The Internal Revenue Manual,         penalty. A review of Fiscal Years 2009 through 2011 NQRS
  management directives, training       reviewer narratives for all 231 closed taxpayer examination
  materials, and the quality            cases with I.R.C. § 6694 preparer penalty errors showed that
  measurement standards require         in every case the NQRS reviewers stated that the preparer
  examiners to properly document        penalty was not considered or there was not proper
  in their case files all aspects of
  their work during a taxpayer          documentation to support nonassertion of the penalty. Of
  examination, which includes           the 231 errors:
     preparer penalty considerations
     and assertions.                             197 (85 percent) were charged because the examiner
     Examination managers and field
                                                  did not appear to have considered the preparer
     examiners should adequately                  penalty but, based on documentation in the case file,
     document consideration of the                the penalty should have been imposed.
     preparer penalty so that NQRS
     reviewers can determine with                32 (14 percent) were charged because the preparer
     certainty whether procedures                 penalty appears to have not been considered and
     were followed.                              there was no documentation to support nonassertion
                                                 of the penalty.
          Two (1 percent) were charged because documentation did not support nonassertion of the
           penalty, although there was consideration given to the penalty.
The SB/SE Division uses NQRS reviewers to assess the quality of closed taxpayer examination
cases. The reviewers use 18 quality attributes based on the SB/SE Division’s expectations for
quality examinations and guidelines that assist examiners in fulfilling their professional
responsibilities. Of the 18 quality attributes, the NQRS reviewers use Attribute 408, Civil
Penalty Determination, to evaluate whether preparer penalties were properly considered and
correctly computed and whether the assertion or nonassertion of penalties was adequately
documented in the taxpayer examination case files.
SB/SE Division officials stated that they do not believe that a quality reviewer can determine
with certainty whether a paid preparer penalty was or was not considered by just reviewing the
tax return examination case file and not the associated preparer penalty case file. When
I.R.C. § 6694 penalties are assessed, the IRS creates separate case files for the preparers. Field


12
  The NQRS is a cornerstone of the Embedded Quality process, which is designed to place more emphasis on
significant case actions and less on process steps.
                                                                                                      Page 9
                    Improvements Are Needed in Assessing and Enforcing
                 Internal Revenue Code Section 6694 Paid Preparer Penalties



or office examiners could have asserted preparer penalties but simply failed to document their
decisions in the taxpayers’ examination case files.
In addition, officials stated that examiners must exercise caution when documenting preparer
issues in the taxpayer’s examination case file. They stated that the documentation needs to be
limited to the information necessary to demonstrate that the examiner considered the paid
preparer’s actions. They can accomplish this by checking the appropriate box on the audit
Penalty Lead Sheet. They may also include facts received from the taxpayer about the tax return
preparation, including the taxpayer’s statements about his or her interaction with the preparer.
However, examiners cannot include any information about the return preparer’s conduct
gathered from other sources or conclusions about the assertion or nonassertion of the preparer
penalty in the underlying case file.
However, the source of the errors the NQRS reviewers identified during their quality reviews of
the case files may be attributed to Examination management’s interpretation of the required
procedures. These procedures specifically require that the examiner document the audit Penalty
Lead Sheet when he or she determines whether or not to proceed with a preparer penalty
investigation. In addition, the procedures require that when the examiner has made the decision
that the tax return preparer may be responsible for the understatement of tax, he or she is to
check the appropriate box on the audit Penalty Lead Sheet.
Adherence to these procedures would help NQRS reviewers determine whether the examiner
considered the preparer penalty or documented his or her decision to not assert the penalty.
SB/SE Division officials stated that they are currently reviewing the audit Penalty Lead Sheet to
determine how much information should be included. Afterwards, officials will decide whether
examiners and managers need additional training or a written reminder regarding the procedures.
However, they will work with IRS’s Office of Disclosure and Office of the Chief Counsel for
clarification.

Recommendation
Recommendation 4: The Commissioner, SB/SE Division, should evaluate what information
to include on the audit Penalty Lead Sheets related to preparer penalty determinations. Once the
decision has been made, decide whether the Internal Revenue Manual needs to be updated and
whether managers and examiners need refresher training.
       Management’s Response: IRS management agreed with this recommendation. The
       Director, Examination Policy, will evaluate the preparer penalty information included on
       the Lead Sheet 300, Civil Penalty Approval Form, and make necessary revisions to the
       lead sheet and Internal Revenue Manual to ensure that examiners have the tools and
       guidance needed to adequately document the income tax case file.



                                                                                         Page 10
                          Improvements Are Needed in Assessing and Enforcing
                       Internal Revenue Code Section 6694 Paid Preparer Penalties



Collection Actions Are Not Being Actively Pursued on Some Preparer
Penalty Assessments
An analysis of the Master File accounts with an I.R.C. § 6694(a) and/or (b) paid preparer penalty
assessment through January 14, 2013,13 identified 2,336 paid preparers and 7,365 penalty
assessments. The penalty assessments totaled approximately $35.1 million.14
          2,866 of the assessments were I.R.C. § 6694(a) penalties totaling $2.9 million.
          4,499 of the assessments were I.R.C. § 6694(b) penalties totaling $32.2 million.
See Figure 1 for the results of further analysis of the $35.1 million in preparer penalties. Since
the date of the original assessment, 66 percent have been paid, are in the process of being paid,
or are being actively pursued by the IRS for payment. The other 34 percent are currently not
collectible.
                      Figure 1: Status of the Preparer Penalty Assessments15

      Dollar
      Amount            Percent      Status of Preparer Penalty Account
      $11.8 million        34%       Collection actions suspended (currently not collectible).
                                     Being actively pursued by either the IRS’s Automated Collection
      $11.6 million        33%
                                     System or Field Collection function.
      $3.1 million         9%        In notice status.
                                     Under a formal payment agreement for which payments are being
      $2.9 million         8%
                                     made.
      $2.7 million         8%       Paid by levies or voluntary payments from the preparer.16
      $1.9 million         5%        Written off because the 10-year collection statute period had expired.
      $1.2 million         3%        Paid by credit offsets from the preparers’ related tax accounts.

      $35.1 million       100%
     Source: TIGTA analysis of the Master File accounts with an I.R.C. § 6694(a) and/or (b) paid preparer penalty
     assessment through January 14, 2013.


13
   A penalty account may show multiple penalty assessments for the same paid preparer. January 14, 2013, was the
latest date of any preparer penalty assessments in the database. If a preparer was assessed a penalty and fully paid,
but the account is no longer active on the Master File, it was not included in our sample population.
14
   The $35.1 million is the amount of the original assessments and does not include any adjustments for subsequent
payments, abatements, offsets, or write-offs.
15
   Figures are rounded.
16
   We were unable to differentiate the levies from the voluntary payments because the IRS uses the same transaction
code to report both items.
                                                                                                            Page 11
                        Improvements Are Needed in Assessing and Enforcing
                     Internal Revenue Code Section 6694 Paid Preparer Penalties



When I.R.C. § 6694 penalties are assessed, the IRS creates separate penalty accounts for the paid
preparers on the Master File. These penalty accounts are subject to the traditional collection due
process afforded to all taxpayers with outstanding tax obligations. Collection due process
includes the IRS sending a series of notices to remind the paid preparer to either pay the penalty
balance in full or to take steps to establish an installment agreement or an offer in compromise.
However, if the paid preparer does not respond to the notices and does not make any effort to
pay, the penalty account is considered delinquent and is subsequently referred to the IRS’s
collection programs where employees can take enforcement actions.

Collection activities on some preparer penalty tax accounts were suspended
Further analysis of the 584 preparer penalty tax accounts related to the $11.8 million for which
collection activities were suspended showed that the largest number of accounts (243) was
suspended because they were below the IRS’s thresholds or tolerances.17 The IRS will also
suspend collection activities, for example, when a paid preparer is experiencing a financial
hardship, when the IRS cannot locate the preparer, or when the IRS needs additional time to
research and review the preparer’s account. Suspending collection activities is part of the normal
collection due process for every taxpayer who meets certain criteria. The results of the analysis
of suspended penalty accounts are captured in Figure 2.
                          Figure 2: Collection Activity Suspended for
                    I.R.C. § 6694(a) and (b) Preparer Penalty Tax Accounts

          Number of Preparer
         Penalty Tax Accounts18              Reasons the IRS Suspended Collection Activities
                     243                  Suspended based on dollar thresholds and tolerances.
                     227                  The preparer was unable to pay due to a financial hardship.
                     149                  The IRS was unable to locate or contact the preparer.
                      45                  The preparer was deceased.
                      7                   The preparer was a defunct or bankrupt corporation.
                      **1 ***             *******************1***************************************.
       Source: TIGTA analysis of the Master File as of January 14, 2013.

SB/SE Division officials stated that although return preparers benefit from suspended collection
actions, they are still expected to be current with filing their personal and/or business tax returns

17
   The IRS has thresholds and tolerances for certain collection activities. If total amounts due are below certain
thresholds or tolerances, the collection activities will be suspended. The thresholds and tolerances are different
based on the collection activity.
18
   The number of penalty tax accounts exceeds 584 because the IRS used more than one criterion for suspending
collection activity.
                                                                                                             Page 12
                     Improvements Are Needed in Assessing and Enforcing
                  Internal Revenue Code Section 6694 Paid Preparer Penalties



and paying any new taxes due. The IRS will reactivate the suspended preparer penalty account if
the preparer incurs any further delinquencies or his/her income exceeds a certain dollar
threshold. However, as long as the preparer does not meet these criteria, then the suspension of
collection actions will continue.

Some unpaid preparer penalty assessments are never collected and the liabilities
are subsequently written off
Of the 584 suspended preparer penalty tax accounts identified, 87 (15 percent) accounts with
$2.6 million in assessments are scheduled to expire before the end of Calendar Year 2014. The
law provides that the IRS has 10 years from the date of an assessment to collect delinquent taxes.
When the collection statute period expires before the penalty assessment is paid in full, the IRS
writes off the outstanding assessment and the taxpayer or preparer is no longer obligated to pay
the delinquent liability.
As shown in Figure 3, the $2.6 million that could be written off represents 22 percent of the
$11.8 million in tax accounts with suspended collection actions.
                      Figure 3: Preparer Penalty Tax Accounts With
                       Suspended Collection Actions to Potentially
                             Be Written Off by Calendar Year

                 Calendar Year the
                 10-Year Collection            Number of                Total Dollars
                   Statute Period           Preparer Penalty             Potentially
                      Expires                Tax Accounts                Written Off
                         2013                       60                   $2.2 million
                         2014                       27                   $0.4 million
                                                    87                   $2.6 million
               Source: TIGTA analysis of the Master File as of January 14, 2013.

Thirty-nine (45 percent) accounts totaling approximately $98,000 were suspended based on
dollar thresholds or tolerances. The remaining 48 (55 percent) totaling approximately
$2.5 million were determined by the IRS to be uncollectible for various other reasons—hardship,
unable to locate, etc.

The SB/SE Division’s analysis of preparer penalty cases in collection status had
comparable results
The SB/SE Division conducted an analysis of the preparer penalty cases in collection status. Its
October 2012 results showed that 68 percent of the preparer penalty tax accounts in collection
status had suspended collection actions. By comparison, the overall rate for suspending all cases
in collection status was 42 percent.

                                                                                          Page 13
                     Improvements Are Needed in Assessing and Enforcing
                  Internal Revenue Code Section 6694 Paid Preparer Penalties



SB/SE Division officials found that overall the collection cases were worked properly, but they
did identify the following:
      Some revenue officers did not recognize what the preparer penalty represented.
      Revenue officers did not attempt to locate paid preparers who were no longer operating a
       tax return preparation business.
      A systemic weakness automatically caused tax accounts to suspend.
      There were some delays assigning preparer penalty cases to revenue officers. Most cases
       appeared to take five to seven years between the examination and assignment to a
       revenue officer.
      Some paid preparers were criminally convicted, released on probation, and unable to pay.
      Preparers took their assets and moved out of the country.
The results of the analyses led the SB/SE Division to develop the Return Preparer Penalty
Collection Enterprise Improvement Project. The overall goal of the project is to investigate and
identify improvement opportunities to reduce the suspense rate of preparer penalty assessments
to below 68 percent. The project is currently in the information gathering/analysis stage and is
scheduled to continue through Fiscal Year 2013 and beyond, dependent upon the SB/SE
Division’s long term needs.

Circular 230 provides disciplinary actions, but not all preparers come under the
Circular 230 regulations
The IRS Office of Professional Responsibility has the authority to sanction practitioners who
recklessly or through gross incompetence violate Circular 230 § 10.34. Circular 230 § 10.34
states, in part, that:
       (1) A practitioner may not willfully, recklessly, or through gross incompetence —
           (i) Sign a tax return or claim for refund that the practitioner knows or reasonably
               should know contains a position that —
               (A) Lacks a reasonable basis;
               (B) Is an unreasonable position as described in § 6694(a)(2) of the Internal
                   Revenue Code (Code) (including the related regulations and other published
                   guidance); or
               (C) Is a willful attempt by the practitioner to understate the liability for tax or a
                   reckless or intentional disregard of rules or regulations by the practitioner as
                   described in §6694(b)(2) of the Code (including the related regulations and
                   other published guidance).




                                                                                                       Page 14
                     Improvements Are Needed in Assessing and Enforcing
                  Internal Revenue Code Section 6694 Paid Preparer Penalties



Since August 2, 2011, most paid tax return preparers have been subject to a new regulation in
Circular 230 § 10.8(c), Return preparation and application of rules to other individuals. **1***
*****************************************1**********************************
**********************************1***********************. As Examination and
Collection function personnel become more familiar with the new Circular 230 provision, more
referrals should be received for disciplinary consideration by the Office of Professional
Responsibility. Specifically, examiners are now mandated to refer I.R.C. § 6694(b) preparer
penalty assessments to the Office of Professional Responsibility. However, in order to refer
I.R.C. § 6694(a) preparer penalty assessments to the Office of Professional Responsibility, the
examiner must show a pattern of willful intent to understate taxes on the part of the paid tax
return preparer.
Tax return preparers are subject to tax compliance checks when they register for Preparer
Tax Identification Numbers
When preparers register for a PTIN, they are subject to suitability tests that include a tax
compliance check and a check for outstanding balances (which could consist of preparer
penalties). However, the IRS does not have a systemic tax compliance check in place at the time
of the PTIN application.
As of November 2012, 504 PTIN holders had been issued noncompliance notification letters.
Only the most egregious received letters (those who owed $100,000 or more, nonfilers who
owed over $50,000, or individuals with three or more nonfiled tax returns). In early Calendar
Year 2013, the IRS sent additional letters to 175 credentialed preparers who received the initial
noncompliance notification letters. As of April 5, 2013, the IRS has verified the personal tax
compliance of more than 929,000 PTIN holders, and 97 percent are compliant. For the
remaining 3 percent, the IRS is in the process of communicating with a sample of the
credentialed preparers to address their outstanding tax obligations.
The purpose of proposing and assessing penalties on paid return preparers is to encourage
accountability, change improper preparer behavior, and increase voluntary compliance.
Therefore, when a tax account is a result of assessed penalties originating from tax return
preparer violations, it is essential that all required actions are completed in collecting and
resolving the outstanding balance due. Although most paid preparers are currently subject to
Circular 230 regulations, the penalties are an important incentive for preparers to comply with
the tax laws when preparing tax returns. The IRS can take steps to improve the collection of
preparer penalties to ensure that the penalties are helping paid preparers prepare accurate tax
returns.




                                                                                           Page 15
                     Improvements Are Needed in Assessing and Enforcing
                  Internal Revenue Code Section 6694 Paid Preparer Penalties



Recommendations
The Commissioner, SB/SE Division, should:
Recommendation 5: Develop procedures to minimize delays in assigning the I.R.C. § 6694
preparer penalty accounts to a revenue officer. This will help mitigate the risks to collectability,
such as being unable to locate a paid preparer, because too much time has lapsed after the
preparer penalty assessment.
       Management’s Response: IRS management agreed with this recommendation. On
       June 3, 2013, the Enterprise Collection Strategy function implemented changes to the risk
       coding of Return Preparer Penalty accounts to promote the timely assignment of these
       cases to the Field Collection function.
Recommendation 6: Address and act on the initial results from the Return Preparer Penalty
Collection Enterprise Improvement Project that include processes to train revenue officers about
the purpose and use of the I.R.C. § 6694 paid preparer penalties so that more careful
consideration is given before suspending collection activities on these types of accounts. This
should also include developing a process to monitor these penalties through the collection stream
and analyzing the penalized preparers’ subsequent filing actions to determine the return on
investment of Collection resources and possible Collection improvement projects.
       Management’s Response: IRS management agreed with this recommendation.
       They provided a two-pronged corrective action: 1) The Enterprise Collection Strategy
       function will ensure that appropriate communication is issued within the Field Collection
       function to emphasize the importance of return preparer penalties. They will ensure that
       relevant Internal Revenue Manual sections contain appropriate guidance regarding the
       collection of these accounts. 2) Collection Policy will assess the effectiveness of the
       enhancements made as a result of the Return Preparer Penalty Collection Enterprise
       Improvement Project to determine if the changes resulted in increased collection of the
       penalties and subsequent deterrence and will consider future actions based on those
       results.




                                                                                             Page 16
                          Improvements Are Needed in Assessing and Enforcing
                       Internal Revenue Code Section 6694 Paid Preparer Penalties



                                                                                      Appendix I

            Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether controls are in place to ensure
that the IRS effectively applies and enforces penalties against paid preparers1 as required by
I.R.C. § 6694.
To accomplish this objective, we:
I.         Determined whether the IRS developed effective procedures for asserting
           I.R.C. § 6694 penalties against paid preparers.
           A. Reviewed I.R.C. § 6694(a) and (b); Internal Revenue Manual 20.1.6, Penalty
              Handbook, Preparer, Promoter, Material Advisor Penalties (rev. May 16, 2012),
              guidelines; and local desk procedures and determined the IRS’s processes for
              considering, asserting, and assessing I.R.C. § 6694 paid preparer penalties.
           B. Obtained from NQRS officials an NQRS data extract of the entire population of
              Fiscal Years 2009 through 2011 penalty case reviews with a failing rating for
              Attribute 408. There were 231 penalty cases with an error in Attribute 408.
           C. Reviewed the narratives in the 231 NQRS preparer penalty error cases to determine
              whether the feedback the NQRS reviewer provided contained statements that
              identified the specific cause of the error.
           D. Interviewed NQRS officials and analysts to determine whether they used the results
              of the NQRS evaluations to effectively target training needs and improve future
              performance.
           E. Interviewed SB/SE Division Examination Policy officials to determine whether they
              used the results of the NQRS evaluations to improve the overall preparer penalty
              program.
II.        Determined whether the IRS timely processed paid preparer penalty cases.
           A. Reviewed procedures in I.R.C. § 6751(b) and Form 8278 regarding the accountability
              of the immediate manager, return preparer coordinator, and Centralized Case
              Processing function employees in ensuring proper documentation of the assertion,
              review, and assessment of the preparer penalty. We also interviewed:



1
    See Appendix VII for a glossary of terms.
                                                                                           Page 17
                    Improvements Are Needed in Assessing and Enforcing
                 Internal Revenue Code Section 6694 Paid Preparer Penalties



          1. SB/SE Division field and office examiners and immediate managers in Atlanta,
             Georgia, and Memphis, Tennessee, to assess proper adherence to procedures
             regarding considering and asserting the preparer penalty.
          2. SB/SE Division return preparer coordinators in various IRS locations to assess
             proper adherence to procedures regarding case reviews and documentation.
          3. SB/SE Division’s Centralized Case Processing function employees in Memphis,
             Tennessee, to assess proper adherence to procedures regarding recording the
             penalty assessment.
       B. Extracted from the Treasury Inspector General for Tax Administration’s Data Center
          Warehouse Individual Master File and Business Master File tables all penalties
          assessed from Fiscal Years 2009 through 2011 with a civil penalty Transaction
          Code 240 and Reason Codes 640 or 645.
       C. Selected a statistically valid random sample of 98 I.R.C. § 6694 preparer penalty
          cases from 2,345 cases closed during Fiscal Years 2009 through 2011 to determine
          whether the managers properly approved the penalty assertions. We used a
          90 percent confidence level, a 10 percent expected error rate, and ± 5 percent
          precision level. We took a statistically valid random sample because we wanted to
          project the number and amount of deficiencies associated with not properly asserting
          the preparer penalty over the population of all 2,345 penalty cases closed during
          Fiscal Years 2009 through 2011.
       D. Assessed the validity of the Treasury Inspector General for Tax Administration’s
          Data Center Warehouse records by selecting 10 of the 2,345 closed cases and
          comparing information from key fields (Employer Identification Numbers, preparer
          penalty reference numbers, and account balances) to information on the Integrated
          Data Retrieval System. We did not identify any discrepancies.
       E. Used the Treasury Inspector General for Tax Administration’s contracted statistician
          to review and agree with the sampling plan and to develop projections.
III.   Determined whether the IRS effectively enforced paid preparer penalties.
       A. Used the Treasury Inspector General for Tax Administration’s Data Center
          Warehouse to obtain a data extract of the entire population of I.R.C. § 6694 penalty
          assessments on the Master File as of January 14, 2013. The extract contained
          7,365 paid preparer penalties totaling $35.1 million.
       B. Analyzed the extract to assess the current collection status of the paid preparer
          penalties. The analysis included calculating the volume of accounts classified as fully
          paid or written off, under an installment agreement, in collection, or suspended.


                                                                                         Page 18
                    Improvements Are Needed in Assessing and Enforcing
                 Internal Revenue Code Section 6694 Paid Preparer Penalties



       C. Interviewed SB/SE Division Collection Policy officials to determine whether they
          have developed effective methods to enhance the current traditional enforcement
          tools.
       D. Assessed the impact of the program improvements on the 7,365 paid preparer penalty
          assessments in our data extract.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: the I.R.C.; IRS policies, procedures, and
practices for asserting, assessing, and collecting I.R.C. § 6694 paid preparer penalties; and
quality review procedures in place to evaluate the accuracy of penalty determinations. We
evaluated these controls by reviewing source materials, interviewing management, and reviewing
preparer penalty case files and quality review results.




                                                                                         Page 19
                   Improvements Are Needed in Assessing and Enforcing
                Internal Revenue Code Section 6694 Paid Preparer Penalties



                                                                            Appendix II

                Major Contributors to This Report

Augusta Cook, Acting Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Frank Dunleavy, Acting Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Bryce Kisler, Director
Deborah Smallwood, Audit Manager
Andrea Barnes, Lead Auditor
Cindy Harris, Senior Auditor
Marge Filippelli, Auditor




                                                                                    Page 20
                   Improvements Are Needed in Assessing and Enforcing
                Internal Revenue Code Section 6694 Paid Preparer Penalties



                                                                          Appendix III

                         Report Distribution List

Principal Deputy Commissioner
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Office of the Deputy Commissioner for Services and Enforcement SE
Chief Financial Officer OS:CFO
Director, Office of Professional Responsibility SE:OPR
Director, Return Preparer Office SE:RPO
Director, Campus Compliance Services, Small Business/Self-Employed Division SE:S:CCS
Director, Enterprise Collection Strategy, Small Business/Self-Employed Division SE:S:CS
Director, Collection Policy, Small Business/Self-Employed Division SE:S:CS:CP
Director, Campus Compliance Operations, Memphis, Small Business/Self-Employed Division
SE:S:CCS:CCO:MEM
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Commissioner, Small Business/Self-Employed Division SE:S




                                                                                  Page 21
                        Improvements Are Needed in Assessing and Enforcing
                     Internal Revenue Code Section 6694 Paid Preparer Penalties



                                                                                               Appendix IV

                                      Outcome Measure

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. This benefit will be incorporated into our
Semiannual Report to Congress.
Type and Value of Outcome Measure:
Revenue Protection – Potential; $454,643 in preparer penalty assessments for 191 closed cases
for which there is no evidence of written management approval of the preparer penalty (see
page 4).
Methodology Used to Measure the Reported Benefit:
We selected and reviewed a statistically valid random sample of 98 I.R.C. § 6694 penalty cases.
We selected the sample from the population of 2,345 penalty cases that were closed for Fiscal
Years1 2009 through 2011. The sampled preparer penalty cases totaled $9.35 million. We used
a confidence level of 90 percent, a precision level of ± 5 percent, and an expected error rate of
10 percent to select the sample. Our results showed eight of 98 cases (8.16 percent) totaling
$19,000 in penalty assessments were improperly assessed because there was no evidence in the
case files that the immediate managers personally approved, in writing, the assessments as
required by I.R.C. § 6751(b). Three cases had no manager’s signature and five had the
manager’s name typed on Form 8278. In addition, there was no evidence such as a handwritten
or digital signature or a manager’s notation on any other documents in the case files showing that
the immediate manager personally approved the penalty assessments.
We project that approximately 191 preparer penalty cases closed during Fiscal Years 2009
through 2011 may have been improperly assessed $454,643 in penalties because there was no
evidence of any managerial approval in the case files.2 We determined the 191 projected penalty
cases by multiplying the 8.16 percent error rate against our population of 2,345 closed preparer
penalty cases. We determined the projected penalty dollar amount by multiplying $193.88, the
average legal exception dollars for the penalty assessment from the eight exception cases, by our
total population of closed cases. The totals may not agree due to rounding.




1
  See Appendix VII for a glossary of terms.
2
  We are 90 percent confident that the range of penalty cases without evidence that the manager personally approved
the penalty assessments in the case file is between 86 and 296. As a result, we estimate that between $116,730 and
$792,555 in penalties could be improperly assessed.
                                                                                                          Page 22
                   Improvements Are Needed in Assessing and Enforcing
                Internal Revenue Code Section 6694 Paid Preparer Penalties



                                                                                   Appendix V

              Internal Revenue Code Section 6694

I.R.C. § 6694. Understatement of taxpayer’s liability by tax return preparer
   (a) Understatement due to unreasonable positions
      (1) In general
      If a tax return preparer—
          (A) prepares any return or claim of refund with respect to which any part of an
          understatement of liability is due to a position described in paragraph (2), and
          (B) knew (or reasonably should have known) of the position, such tax return preparer
          shall pay a penalty with respect to such return or claim in an amount equal to the
          greater of $1,000 or 50 percent of the income derived (or to be derived) by the tax
          return preparer with respect to the return or claim.
      (2) Unreasonable position
          (A) In general
          Except as otherwise provided in this paragraph, a position is described in this
          paragraph unless there is or was substantial authority for the position.
          (B) Disclosed positions
          If the position was disclosed as provided in section 6662(d)(2)(B)(ii)(l) and is not a
          position to which subparagraph (C) applies, the position is described in this paragraph
          unless there is a reasonable basis for the position.
          (C) Tax shelters and reportable transactions
          If the position is with respect to a tax shelter (as defined in section 6662(d)(2)(C)(ii)
          or a reportable transaction to which section 6662A applies, the position is described
          in this paragraph unless it is reasonable to believe that the position would more likely
          than not be sustained on its merits.
      (3) Reasonable cause exception
      No penalty shall be imposed under this subsection if it is shown that there is reasonable
      cause for the understatement and the tax return preparer acted in good faith.



                                                                                             Page 23
                 Improvements Are Needed in Assessing and Enforcing
              Internal Revenue Code Section 6694 Paid Preparer Penalties



(b) Understatement due to willful or reckless conduct
   (1) In general
   Any tax return preparer who prepares any return or claim for refund with respect to
   which any part of any understatement of liability is due to a conduct described in
   paragraph (2) shall pay a penalty with respect to each such return or claim in an amount
   equal to the greater of—
       (A) $5,000, or
       (B) 50 percent of the income derived (or to be derived) by the tax return preparer with
       respect to the return or claim.
   (2) Willful or reckless conduct
   Conduct described in this paragraph is conduct by the tax return preparer which is—
       (A) a willful attempt in any manner to understate the liability for tax on the return or
       claim, or
       (B) a reckless or intentional disregard of rules or regulations.
   (3) Reduction in penalty
   The amount of any penalty payable by any person by reason of this subsection for any
   return or claim for refund shall be reduced by the amount of the penalty paid by such
   person by reason of subsection (a).
(c) Extension of period of collection where preparer pays 15 percent of penalty
   (1) In general
   If, within 30 days after the day on which notice and demand of any penalty under
   subsection (a) or (b) is made against any person who is an income tax return preparer,
   such person pays an amount which is not less than 15 percent of the amount of such
   penalty and files a claim for refund of the amount so paid, no levy or proceeding in court
   for the collection of the remainder of such penalty shall be made, begun, or prosecuted
   until the final resolution of a proceeding begun as provided in paragraph (2).
   Notwithstanding the provisions of section 7421(a), the beginning of such proceeding or
   levy during the time such prohibition is in force may be enjoined by a proceeding in the
   proper court. Nothing in this paragraph shall be construed to prohibit any counterclaim
   for the remainder of such penalty in a proceeding begun as provided in paragraph (2).
   (2) Preparer must bring suit in district court to determine his liability for penalty
   If, within 30 days after the day on which his claim for refund of any partial payment of
   any penalty under subsection (a) or (b) is denied (or, if earlier, within 30 days after the

                                                                                         Page 24
                 Improvements Are Needed in Assessing and Enforcing
              Internal Revenue Code Section 6694 Paid Preparer Penalties



   expiration of six months after the day on which he filed the claim for refund), the income
   tax return preparer fails to begin a proceeding in the appropriate U.S. District Court for
   the determination of his liability for such penalty, paragraph (1) shall cease to apply with
   respect to such penalty, effective on the day following the close of the applicable 30-day
   period referred to in this paragraph.
   (3) Suspension of running of period of limitations on collection
   The running of the period of limitations provided in section 6502 on the collection by
   levy or by a proceeding in court in respect of any penalty described in paragraph (1) shall
   be suspended for the period during which the Secretary is prohibited from collecting by
   levy or a proceeding in court.
(d) Abatement of penalty where taxpayer’s liability not understated
If at any time there is a final administrative determination or a final judicial decision that
there was no understatement of liability in the case of any return or claim for refund with
respect to which a penalty under subsection (a) or (b) has been assessed, such assessment
shall be abated, and if any portion of such penalty has been paid the amount so paid shall be
refunded to the person who made such payment as an overpayment of tax without regard to
any period of limitations which, but for this subsection, would apply to the making of such
refund.
(e) Understatement of liability defined
For purposes of this section, the term “understatement of liability” means any understatement
of the net amount payable with respect to any tax imposed by subtitle A or any overstatement
of the net amount creditable or refundable with respect to any such tax. Except as otherwise
provided in subsection (d), the determination of whether or not there is an understatement of
liability shall be made without regard to any administrative or judicial action involving the
taxpayer.
(f) Cross reference
For definition of income tax return preparer, see section 7701(a)(36).




                                                                                       Page 25
           Improvements Are Needed in Assessing and Enforcing
        Internal Revenue Code Section 6694 Paid Preparer Penalties



                                                       Appendix VI

  Form 8278, Assessment and Abatement
     of Miscellaneous Civil Penalties




Source: IRS.gov.
                                                              Page 26
                    Improvements Are Needed in Assessing and Enforcing
                 Internal Revenue Code Section 6694 Paid Preparer Penalties



                                                                                Appendix VII

                              Glossary of Terms

              Term                                         Definition
Audit                         Field examinations of individuals, partnerships, and corporations
                              that occur either at the taxpayer’s place of business or through
                              interviews at an IRS office.
Business Master File          The IRS database that consists of Federal tax-related transactions
                              and accounts for businesses. These include employment taxes,
                              income taxes on businesses, and excise taxes.
Calendar Year                 A 12-consecutive-month period ending on December 31.
Centralized Case Processing   An IRS Campus function that provides support to the field
                              operations of the Examination function.
Credentialed Preparers        Preparers who are certified public accountants, attorneys, or enrolled
                              agents.
Currently Not Collectible     Tax accounts are reported as currently uncollectible when the
                              taxpayer has no income or assets which are, by law, typically subject
                              to levy.
Data Center Warehouse         A Treasury Inspector General for Tax Administration Office of
                              Information Technology function that obtains and stores numerous
                              IRS data files and makes them available to auditors and
                              investigators.
Delinquent                    A tax account for which part or the entire amount owed to the IRS is
                              overdue. These amounts can represent quarterly taxes such as
                              employment taxes or annual taxes for unemployment taxes that are
                              due once per year.
Embedded Quality              A process tool to assist managers in identifying opportunities to
                              build skills and enhance strengths in their employees’ individual
                              performance.
Examiners                     IRS employees who examine tax returns to determine whether
                              taxpayers accurately reported their tax liabilities.
Fiscal Year                   A 12-consecutive-month period ending on the last day of any month.
                              The Federal Government’s fiscal year begins on October 1 and ends
                              on September 30.

                                                                                           Page 27
                       Improvements Are Needed in Assessing and Enforcing
                    Internal Revenue Code Section 6694 Paid Preparer Penalties




              Term                                            Definition
                                The IRS database that maintains transactions or records of individual
Individual Master File
                                tax accounts.
                                An agreement by which the IRS allows taxpayers to pay the tax they
Installment Agreement           owe in monthly installments instead of immediately paying the full
                                amount.
                                IRS computer system capable of retrieving or updating stored
                                information; it works in conjunction with a taxpayer’s account
Integrated Data Retrieval
                                records. This system shows historical information (original account
System
                                balances, adjustments, payments, abatements) and current account
                                status (fully paid, collections, suspended, etc.).
                                The official source of information on policies and procedures for use
Internal Revenue Manual
                                by all IRS offices.
                                The IRS database that maintains transactions or historical records of
Master File
                                individual and business tax accounts.
                                Computer-generated messages resulting from an analysis of the
                                taxpayer’s account on the Master File. These include notices of
Notice
                                assessments of tax, adjustments, balances due, or overpayments that
                                are refunded to taxpayers.
                                An IRS office responsible for resolving tax controversies, without
                                litigation, on a basis that is fair and impartial to both the Federal
Office of Appeals               Government and the taxpayer in a manner that will enhance
                                voluntary compliance and public confidence in the integrity and
                                efficiency of the IRS.
                                An independent body charged to oversee the IRS in its
Oversight Board                 administration, management, conduct, direction, and supervision of
                                the execution and application of the Internal Revenue laws.
                                An individual who is compensated for preparing or assisting in the
Paid Preparer                   preparation of all or substantially all of a tax return or claim for
                                refund of tax.
                                An audit tool examiners use to document whether a return preparer
                                penalty was considered. Examiners use this tool because disclosure
Penalty Lead Sheet
                                guidelines preclude reference to an examination of another taxpayer
                                in the return preparer’s client case file.
                                An exclusive number used to identify any paid tax return preparer
Preparer Tax Identification
                                who is required to sign and submit tax returns to the IRS. The
Number
                                preparer must be at least 18 years of age.

                                                                                               Page 28
                       Improvements Are Needed in Assessing and Enforcing
                    Internal Revenue Code Section 6694 Paid Preparer Penalties




              Term                                           Definition
                                A code the IRS uses when an adjustment is made to a taxpayer’s tax
Reason Code                     account. Reason codes describe how the adjustment action affects
                                the original return.
                                Conducts a cursory review of the return preparer penalty case file,
                                which includes Form 8278, Assessment and Abatement of
                                Miscellaneous Civil Penalties. If the Form 8278 is missing the
Return Preparer Coordinator
                                signature of the originator or the originator’s group manager, the
                                return preparer coordinator signs and dates the form and returns it
                                and the complete case file to the field group for correction.
                                Suitability tests include verifying information that the preparers
                                provide on their PTIN applications, verifying that applicants meet
Suitability Tests
                                minimum competency standards, and conducting tax compliance and
                                background checks.
                                In law, a summary judgment is a judgment entered by a court for one
Summary Judgment
                                party and against another party summarily, i.e., without a full trial.
                                The 12-month period for which tax is calculated. For most
Tax Year                        individual taxpayers, the tax year is synonymous with the calendar
                                year.
                                A three-digit code used to identify actions being taken to a
Transaction Code
                                taxpayer’s account.
                                Tax return preparers who, except in a limited number of States, have
                                no minimum education or training requirements. These preparers
Unenrolled Return Preparers
                                are generally not regulated by a State licensing authority or the
                                Federal Government.




                                                                                               Page 29
       Improvements Are Needed in Assessing and Enforcing
    Internal Revenue Code Section 6694 Paid Preparer Penalties



                                                  Appendix VIII

Management’s Response to the Draft Report




                                                          Page 30
   Improvements Are Needed in Assessing and Enforcing
Internal Revenue Code Section 6694 Paid Preparer Penalties




                                                      Page 31
   Improvements Are Needed in Assessing and Enforcing
Internal Revenue Code Section 6694 Paid Preparer Penalties




                                                      Page 32
   Improvements Are Needed in Assessing and Enforcing
Internal Revenue Code Section 6694 Paid Preparer Penalties




                                                      Page 33
   Improvements Are Needed in Assessing and Enforcing
Internal Revenue Code Section 6694 Paid Preparer Penalties




                                                      Page 34
   Improvements Are Needed in Assessing and Enforcing
Internal Revenue Code Section 6694 Paid Preparer Penalties




                                                      Page 35
